                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

     Case Number: '~04120074                                                                           Page 1 of 2



                   OIG received an allegation1that the subject2had submitted an NSF proposal3that failed to
          list her pending NIH proposal4 in the Current and Pending Support Form. Our comparison of the
          two proposals showed that the NSF proposal was submitted about 12 days after the NIH proposal
          and the NSF Cover Page did not indicate that the NSF proposal had not been submitted to other
          agencies. The NSF proposal appeared substantially duplicative of the NIH proposal containing a
          significant amount of identical text and several identical figures. The subject's NSF proposal made
          no mention of the previously submitted, and pending NIH proposal.

                  The subject's proposal was submitted to NSF's Biological Sciences Directorate which
          has a long-standing restriction on the submission of duplicate proposals. This restriction states:

                  Research proposals to the Biological Sciences Directorate (not proposals for conferences or
          workshops) cannot be duplicates of proposals to any other Federal agency for simultaneous consideration.
          The only exceptions to this rule are: (1) when the proposers and program officers at relevant Federal agencies
          have previouslyagreed to joint review and possible joint funding of the proposal; or (2) proposals for PISwho
          are beginning investigators (individuals who have not been a principal investigator (PI)i or co-principal
          investigator (co-PI) on a Federally funded award with the exception of doctoral dissertation, postdoctoral
          fellowship or research planning grants). For proposers who qualify under this latter exception, the box for
          "Beginning Investigator" must be checked on the proposal Cover ~ h e e t . ~
                           I




                     The subject did not qualify for an exemption to this rule.

                   In response to our inquiry and after reviewing NSF's rules, the subject stated that she was
           unaware of the Directorate's submission restrictions and acknowledged she had completed both the
           Cover Page and the Form incorrectly. The subject stated that she thought she only had to declare
           hnded proposals on NSF's Form. The subject acknowledged that the two proposals did overlap and
           stated she intended to inform NSF and NIH if both proposals were funded so that the agencies and
           she could make sure the funded work was not duplicative.


Il                   Our review also indicated that the NSF proposal might be discussing some completed work




I'
 NSF OIG Form 2 (1 1/02)
                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A04120047                                                                     Page 2 of 2



    for which the NIH proposal was requesting funds. The subject provided detailed information about
    the work described in the NSF proposal as completed and in the NIH proposal as work to be initiated
    if funding!werereceived. The subject stated that the NSF proposal described preliminary work, not
    published work. The subject characterized the work as needing repeating and amplification. As
    such, the subject did not consider the work "completed." The subject also provided detail about the
    specific portions of the two proposals that appeared duplicative. It is clear that the subject intended
    to take the two similar projects in different directions, thus distinguishing the two requests for
    funding.

           The subject's responses have adequately resolved our concerns regarding her NSF proposal.
